                                                     OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 4) Version 4.0
               Reporting Entity: Department of State ‐ OIG
             Month Ending Date: 09/30/2009

                                                  Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau            Recovery Act TAFS         Obligation Type     US Indicator        State Code       Total Obligations   Total Gross 
                                                                                                      (ONLY for grants                          Outlays
                                                                                                      and cooperative 
No.                                                                                                     agreements)
      Department of State ‐ OIG   (19‐0530 2009 \ 2010) State ‐  Contracts and          Y ‐ US                                                  $4,681 
                                  OIG ‐ Recovery Act            Orders (including 
                                                                 modifications)
  1                                                                                                                           $37,608.12
  2
  3
  4
  5
  6
  7
  8
  9
 10


                                      Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau         Non‐Recovery Act TAFS         Total FY 2009      Total FY 2009     Total FY 2010      Total FY 2010 
No.                                                                Obligations       Gross Outlays      Obligations       Gross Outlays
  1 Department of State ‐ OIG     (19-0529 2009) State - OIG             $59,536            $59,536
  2
  3
  4
  5
  6
  7
  8
  9
 10
                                                                                           OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 2 of 4) Version 4.0
       Reporting OIG: Department of State ‐ OIG
   Month Ending Date: 9/30/2009

  # of FTE Working on Recovery                                 Testimonies:
       Newly Hired FTE 
                          0.00                       Provided (monthly):              0
          (cumulative):
         FTE Funded by 
   Recovery Act Funds     0.00                    Provided (cumulative):              0
          (cumulative):
    FTE Not Funded by 
   Recovery Act Funds     0.50
          (cumulative):

              Complaints                       Whistleblower Reprisal Allegations                              Investigations                     Audits / Inspections / Evaluations /          Training / Outreach
             Monthly Data                                Monthly Data                                          Monthly Data                                  Monthly Data                          Monthly Data
                                                                                                                                                                                                Training Sessions 
                 Received:          2                             Received:           1                              Opened:            0              Initiated (this month):   1                                        0
                                                                                                                                                                                                       Provided:
                                                                                                                                                        In Process (as of the 
                                                                  Accepted:           0                                Active:          0                                        4           Individuals Trained:         0
                                                                                                                                                         end of the month):
                                                                                                                                                            Completed Final 
                                                                                                                                                                                                Hours of Training 
                                                                                                          Pending Decision:             0                    Published Work      0                                        0
                                                                                                                                                                                                       Provided:
                                                                                                                                                                   Products:
                                                                                                                                                             Priority Interim 
                                                                                                                                                                                              Outreach Sessions 
                                                                                                   Closed without Action:               0                    Published Work      0                                        0
                                                                                                                                                                                                    Conducted:
                                                                                                                                                                   P    d t
                                                                                                                                                                   Products:
                                                                                                             Accepted for                                 Unpublished Work 
                                                                                                                                        0                                        0
                                                                                                             Prosecution:                                         Products*:
                                                                                                      Prosecution Denied:               0

                                                                                                              Referred for 
                                                                                                                                        0
                                                                                                   Alternative Resolution:
Cumulative Data Since 2/17/2009                 Cumulative Data Since 2/17/2009                   Cumulative Data Since 2/17/2009                  Cumulative Data Since 2/17/2009        Cumulative Data Since 2/17/2009
                                                                                                                                                         Completed Final 
                                                                                                                                                                                                Training Sessions 
                 Received:          2                             Received:           1            Closed without Action:               0                Published Work       0                                           0
                                                                                                                                                                                                       Provided:
                                                                                                                                                                Products:
                                                                                                                                                          Priority Interim 
                                                                                                                Accepted for 
                                                                  Accepted:           0                                                 0                Published Work        0             Individuals Trained:         0
                                                                                                                Prosecution:
                                                                                                                                                                Products:
                                                                                                                                                      Unpublished Work                          Hours of Training 
                                                                                                      Prosecution Denied:               0                                      0                                          0
                                                                                                                                                               Products*:                              Provided:
                                                                                                              Referred for                                                                    Outreach Sessions 
                                                                                                                                        0                 Cumulative Total:      0                                        0
                                                                                                   Alternative Resolution:                                                                          Conducted:

                                                                                                         Cumulative Total:              0



*These work products were not published because they contain proprietary or other sensitive information that cannot be made available
                                                                                                                            available to the public.                                        State OIG ARRA Monthly Report September 2009
                                                                                                                                                                                                                                    2009.xlsx
                                                                                                                                                                                                                                        .xlsx
                                           OIG Recovery Act Monthly Report
Monthly Update Report Data (sheet 3 of 4) Version 4.0
     Reporting OIG: Department of State ‐ OIG
 Month Ending Date: 09/30/2009

       No.                  OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
                    Independent Public Accountant traveled to International Border and Water Commission (IBWC), El Paso, TX, to
        1           begin audit of IBWC contracts
        2           State Department's response to Contract and Grant Staffing and Qualification Survey submitted to RATB
        3
        4
        5
        6
        7
        8
        9
       10

       No.                              OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for the Future)
        1           Award contract for audit of State Department's
                                                      Department s tracking and reporting of funds provided by ARRA
        2           Initiate audit of Department tracking and oversight of ARRA funding
                    Interim report on Assessing State Dept.'s data quality process and policies and procedures due to RATB
        3
                    by 10/30
        4           Outreach planned in presentations to Financial management training courses at the Foreign Service
        5
        6
        7
        8
        9
       10




                                                                                          State OIG ARRA Monthly Report September 2009
                                                                                                                                  2009.xlsx
                                                                                                                                       .xlsx
                                                       OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 4 of 4) Version 4.0
 Reporting OIG: Department of State ‐ OIG
  Month Ending 
                09/30/2009
          Date:

                                                                        TRAINING ACTIVITIES
                                                                                Training                 Length of                           Presentation    Average
                                             Target                                           Date of               Number of     Cost of
     No.             Type of Training                   Title of Training     Location (City,             Training                            with Other    Evaluation
                                            Audience                                          Training             Participants   Training
                                                                                  State)                  (hours)                                OIGs         Rating
      1
      2
      3
      4
      5
      6
      7
      8
      9
     10

                                        OUTREACH ACTIVITIES
                                          Number of
                                         Orga nizations                       Outreach
                  Organization to which                 Description of                         Date of
     No.                                 Represented                        Location (City,
                   Outreach Provided                      Outreach                            Outreach
                                          at Outreach                           State)
                                            Session
      1
      2
      3
      4
      5
      6
      7
      8
      9
     10




                                                                                                                   State OIG ARRA Monthly Report September 2009.xlsx
